<html>
<title> - PROSPECTS FOR PEACE: THE WAY FORWARD IN AFGHANISTAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                         

 
          PROSPECTS FOR PEACE: THE WAY FORWARD IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON ASIA, THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 10, 2020

                               __________

                           Serial No. 116-102

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                       
                             ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
39-987 PDF                WASHINGTON : 2021                        
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

         Subcommittee on Asia, the Pacific and Nonproliferation

                    AMI BERA, California, Chairman,

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania       SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virginia            ANN WAGNER, Missouri
ANDY LEVIN. Michigan                 BRIAN MAST, Florida
ABIGAIL SPANBERGER, Virginia         JOHN CURTIS, Utah

                                     
                  Nikole Burroughs, Staff Director
                                     
                                     

                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Miller, Laurel, Director, Asia Program, International Crisis 
  Group, (Former State Department Acting Special Representative 
  for Afghanistan and Pakistan)..................................     6
Lute, The Honorable Douglas, Lieutenant General, U.S. Army, 
  Retired, Senior Fellow, The Belfer Center, Harvard University, 
  (Former U.S. Ambassador to Nato)...............................    17
Coffey, Luke, Director, Douglas and Sarah Allison Center for 
  Foreign Policy, The Heritage Foundation........................    21

                                APPENDIX

Hearing Notice...................................................    52
Hearing Minutes..................................................    53
Hearing Attendance...............................................    54

                           OPENING STATEMENT

Opening statement submitted for the record from Chairman Bera....    55


          PROSPECTS FOR PEACE: THE WAY FORWARD IN AFGHANISTAN
          

                        Tuesday, March 10, 2020

                          House of Representatives,
            Subcommittee on Asia, the Pacific, and 
                                   Nonproliferation
                      Committee on Foreign Affairs,
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ami Bera 
(chairman of the subcommittee) presiding.
    Mr. Bera. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, extraneous materials for the record subject to the 
length limitations and the rules.
    I will now make an opening statement and then turn it over 
to the ranking member for his opening statement. And I am going 
to guess we have votes around 3:30, so we will try to get 
through as much as we can.
    First, I want to thank the Ranking Member Mr. Yoho, members 
of the subcommittee, and our witnesses for today's hearing. 
Obviously, a very, very timely hearing, this being March 10.
    Our modern involvement in Afghanistan was born out of that 
brutally tragic day of 9/11. That was a turning point in 
American history. It was also a defining day in our 
relationship with Afghanistan and its people, which led to the 
entry of American and NATO troops in the country. A decision 
that I supported.
    Nearly 20 years later, we are still there. According to 
some accounts, we have lost nearly 2,500 American lives, tens 
of thousands of Americans have been wounded, and we have spent 
over $1 trillion on military and development assistance. The 
toll on the Afghan people has been great--even greater than the 
toll on Americans. U.N. Reports released last month documented 
over 100,000 civilians killed or injured in the last 10 years. 
This has complicated the Bush and Obama Administrations, and 
now the Trump Administration. Each tried to bring America's 
longest war to a close.
    And President Trump has been particularly upfront about 
bringing troops back home. With that, he has empowered former 
U.S. Ambassador to Afghanistan Zalmay Khalilzad to negotiate 
directly with the Taliban, which led us to the signing of the 
recent peace deal. The U.S. Taliban signed peace deal calls for 
complete U.S. withdrawal from Afghanistan, specifically with 
U.S. troop withdrawal from Afghanistan within 14 months. That 
was in exchange for Taliban commitment to not provide safe 
harbor for those who attack the U.S. or our allies.
    The next phase is negotiations between the Taliban and the 
Afghan Government. But as we have seen, the Afghans have formed 
two governments. So, that clearly looks like it will be a 
difficult negotiation. And then the signing came after a 
successful 7-day reduction in violence. Thus far, it does 
indicate that neither the U.S., Taliban, and Afghan Government 
are not carrying out any offensive security processes which we 
have also seen is going to be very difficult.
    Within a week, the Taliban launched an attack on Afghan 
Government and Helmand province. And then the U.S. launched an 
air strike on the Taliban. The week of peace has ended. 
Negotiations between the Taliban and the Afghan Government are 
going to be even harder to carry out. As mentioned earlier, 
they were slated to begin today, but both President Ghani and 
CEO Abdullah declared themselves the winner of the Presidential 
election, and both are forming their own governments.
    Yet, we have got distinguished witnesses here today who 
have gone through this process previously both in Republican 
and Democratic administrations and understand the complexity of 
where we go from here. I take at face value President Trump's 
desire to help bring to a close--and the ranking member and I 
have had conversations about this, and we do not see this as a 
partisan issue. I think there is an overwhelming sentiment in 
Congress that we would like to bring a close to America's 
longest war with an understanding in recognition that we do 
have security interest there. We do want to create an 
environment where we are not going back to Afghanistan 10 years 
from now, facing a new counterterrorism threat.
    And I look forward to the testimony of the witnesses and 
the insight that they can offer as well as the members on this 
subcommittee on how Congress working with the administration 
can move forward in this process. And with that, let me 
recognize the Ranking Member Mr. Yoho for 5 minutes.
    Mr. Yoho. Thank you, chairman. And I appreciate you holding 
this hearing today and looking into a path forward for peace 
and stability. And I find it interesting that you are okay 
going into Afghanistan. I was not. I was a civilian and as I 
think you were. We are on different sides there. But I am glad 
we are at where we are at today.
    I would like to welcome our witnesses today. Ms. Laurel 
Miller from the International Crisis Group. Mr. Douglas Lute 
from the Belfer Center. And Mr. Luke Coffey from the Heritage--
I am sorry, Ambassador. I meant to say Ambassador. I look 
forward to hearing from all of you on the prospects of 
achieving lasting, and I am going to say it again, lasting 
peace in Afghanistan.
    The peace deal signed between the representatives from the 
United States and the Islamic Emirate of Afghanistan known as 
the Taliban from here on out in this. A deal that was 18 months 
in the making, was a momentous step forward in paving the way 
for peace in a conflict that has lasted almost 2 decades and 
claimed the lives of thousands of Americans, along with tens of 
thousands of Afghanistan soldiers and civilians and trillions 
of dollars.
    To the American men and women who have gave their lives in 
Afghanistan along with the many thousands who serve, we owe a 
debt of gratitude. And, you know, we have to make sure they get 
taken care of from here on out. We can repay that debt now by 
ensuring their sacrifice was not in vain and secure a genuine 
and lasting peace for the people of Afghanistan.
    Under the terms of the deal, our forces will withdraw 
during a 14-month timeframe with over 4,000 troops set to 
withdraw in the first 135 days. Prisoner exchanges are also 
part of the deal where a number of Taliban prisoners will be 
exchanged for Afghan security forces taken prisoner. This 
agreement is not an easy one to make, and I applaud the 
administration for arriving at a mutual acceptable term for a 
conflict that still breached an incredibility amount of hate 
and distrust.
    However, the road ahead for peace is a long one. And the 
United States must remain vigilant in preserving the terms of 
the deal between the Afghan Government and the Taliban. Most 
importantly, this deal must ensure that Afghanistan will never 
again become a safe haven for terrorists again.
    One of the major factors determining the stability of this 
deal lies in limiting the outbreaks of violence, like the 
episode we have seen in the weeks following the signing of the 
peace deal. Within days of signing the peace agreement, the 
Taliban resumed attacks against the Afghan Government forces. 
U.S. forces responded with the air strikes against the Taliban, 
soon after as a defensive strike to disrupt their advance on 
Afghan security forces.
    If the Taliban is serious about maintaining peace in 
Afghanistan, this violence must end, it has to end. Should 
fighting be perpetuated by the Taliban, the administration must 
consider delay in the withdrawal of American forces as a 
measure of maintaining regional stability. And make no mistake, 
the wherewithal and the resolution of the American Government 
will follow through on that. And that is something the Taliban 
needs to keep in mind.
    Many barriers stand in the way of peace in Afghanistan. It 
is the hopes of this subcommittee and Congress as a whole, that 
a peaceful end of America's involvement in Afghanistan can be 
reached without jeopardizing innocent Afghan lives living under 
the Democratically controlled areas of that country. America 
continues to stand for freedom and liberty abroad.
    And I look forward to hearing from our experts today on how 
we can continue to responsibly export those values while 
avoiding unnecessary entanglement in bloody conflicts on 
foreign soils. And I yield back.
    Mr. Bera. I am pleased to welcome our witnesses to today's 
hearing. Ms. Laurel Miller, our first witness, is currently the 
Director of the Asia Program at the International Crisis Group, 
and is a former acting State Department Special Representative 
for Afghanistan and Pakistan.
    Ambassador Douglas Lute most recently served as the former 
U.S. Ambassador to NATO and as the White House adviser in the 
Bush and Obama Administrations on Afghanistan.
    And Mr. Luke Coffey is the Director of the Allison Center 
for Foreign Policy studies at the Heritage Foundation and a 
former special senior adviser to the British Defense Secretary.
    Please summarize your written statements to 5 minutes. And 
without objection, your prepared written statements will be 
made a part of the record.
    Ms. Miller, if you could begin.

      STATEMENT OF LAUREL MILLER, DIRECTOR, ASIA PROGRAM, 
  INTERNATIONAL CRISIS GROUP, (FORMER STATE DEPARTMENT ACTING 
      SPECIAL REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN)

    Ms. Miller. Good afternoon, Chairman Bera, Ranking Member 
Yoho, and distinguished members of the subcommittee, thank you 
for inviting me to testify. I will summarize my written 
testimony focusing on what the U.S. Taliban deal means for U.S. 
policy looking ahead.
    The essence of the bargain, as you noted, is a U.S. 
commitment to withdraw all forces from Afghanistan within 14 
months in exchange for Taliban commitment to prevent al-Qaida 
and any other group or individual from using Afghan soil to 
threaten the U.S. and its allies. It also includes a Taliban 
commitment to enter into Afghan peace negotiations--a process 
that was supposed to start today.
    The U.S. withdrawal timeline is conditioned on the 
Taliban's quote ``commitment and action'' closed quote on its 
antiterrorism obligations. That is all the publicly available 
agreement says about the drawdown conditionality. The vagueness 
leaves the U.S.-wide latitude to judge the sufficiency of 
Taliban action in ways that are not spelled out.
    Debate about the agreement has raised the question whether 
it is a peace deal or just a withdrawal deal. In my view, this 
is the wrong question because the first characterization 
oversells the agreement, and the second one undervalues it. The 
deal is not a peace agreement. Even full implementation would 
not bring peace to Afghanistan because only a political 
settlement among the Afghans can do that. The deal does, 
however, create an opportunity for Afghans to reach a political 
settlement, because it commits the Taliban to negotiate with 
other Afghans, which previously they had not been willing to 
do.
    The deal is unquestionably a withdrawal agreement in that 
it sets out terms for the complete pullout of foreign forces. 
But the withdrawal commitment is inextricably linked to the 
potential for a negotiated peace. Because of the Taliban's 
longstanding primary demand for the complete end of the foreign 
military presence, there is no realistic prospect of a 
negotiated end to the war that does not include the promise of 
a U.S. military withdrawal. For the war to end that way, sooner 
or later the U.S. would have to commit to pulling out. Making a 
withdrawal commitment prior to the start of the Afghan's peace 
negotiations was a concession to the Taliban, but it was one 
that U.S. had to make to jump start the talks.
    Years of U.S. efforts to catalyze a peace process without 
making that concession had failed. The U.S. has a starker 
choice to make than some would prefer. Some who are 
uncomfortable with both endless war and the risk entailed by 
complete withdrawal have suggested the U.S. military should 
indefinitely maintain a small number of forces in Afghanistan. 
That idea fails to grapple with the Taliban's refusal to 
countenance agreeing to a continued military presence no matter 
the size.
    Either the U.S. can keep forces in Afghanistan or it can 
enable the possibility of a political settlement by agreeing to 
withdraw, but it cannot do both.
    The agreement includes a timeline for complete withdrawal. 
So it seems that this choice has been made, but the fuzziness 
of the withdrawal conditionality might indicate the U.S. has 
not fully resolved its internal policy struggle over whether it 
really intends to pull out despite President Trump being clear 
about his preference and despite diminished public support for 
the deal--sorry, for the war, that is.
    If Afghan talks get going and produce a peace agreement, 
there will be no basis for the U.S. to keep any forces in 
Afghanistan including for a counter-terrorism mission. The 
Taliban would have to change its viewpoint on the presence of 
foreign forces, 180 degrees to accept that.
    The U.S. would, however, be able to maintain and secure its 
embassy and provide necessary diplomatic and financial support 
for implementation of an agreement. If the peace process 
collapses, however, the war will persist. In that scenario, if 
the U.S. decides to keep troops in Afghanistan, it is doubtful 
the numbers could dip very far.
    The Afghan Government would not likely consent to a force 
presence focused only on serving U.S. counter-terrorism 
interests and not postured to back up the government in its 
existential fight against the insurgency.
    If the U.S. withdraws fully in the absence of a settlement, 
the conflict would spiral into an intensified multisided civil 
war. The embassy would probably have to be evacuated and 
assistance would be greatly reduced. It is also possible the 
Afghans will negotiate just long enough for the U.S. to finish 
its withdrawal. That risk can be mitigated but not eliminated. 
Another unavoidable risk is that they conclude a peace 
agreement, but it later falls apart as many do.
    The next stage of talks is going be to much tougher than 
the one just finished. The Taliban have not had to make any 
difficult compromises yet. So their willingness and ability to 
do so has not been tested. And on the other side of the table. 
Political disunity among factions in ethnic groups is a grave 
problem. It is not clear yet whether the maximalists or those 
more amenable to compromise will be dominant on either side. 
Even with these and other likely problems, pushing for the best 
use of what chance there is for a peace process to work is 
better than any of the alternatives. Thank you.
    [The prepared statement of Ms. Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

      
    Mr. Bera. Thank you, Ms. Miller. Ambassador Lute.

  STATEMENT OF THE HONORABLE DOUGLAS LUTE LIEUTENANT GENERAL, 
 U.S. ARMY, RETIRED, SENIOR FELLOW, THE BELFER CENTER, HARVARD 
          UNIVERSITY, (FORMER U.S. AMBASSADOR TO NATO)

    Mr. Lute. Thank you, Mr. Chairman, ranking member. Thanks 
for this opportunity to appear today to discuss Afghanistan.
    In this statement, I will briefly outline my views on the 
vital U.S. interest at stake. The recent agreement between the 
United States and the Taliban, and some thoughts on the way 
forward.
    As background, I served for 6 years in the White House 
under Presidents Bush and Obama, hoping to coordinate our 
efforts in Afghanistan and the region. More specifically, I was 
involved in 2010, so nearly 10 years ago exactly, in our first 
direct diplomatic contact with the Taliban. This was based on 
the political commission that was at that time located in Doha, 
Qatar. And I helped oversee with others our continued outreach 
to the Taliban through 2013 when I moved out of the White House 
and became the U.S. Ambassador to NATO.
    Let me begin my statement today where all U.S. policy 
discussions should begin. American national interests. In my 
view, the only vital American interest at stake in Afghanistan 
is to counterterrorist groups that have the potential to strike 
the United States, its citizens and our treaty allies. Indeed, 
this purpose mirrors the original purpose of our intervention 
just weeks after 9/11 in 2,001. And it remains the core reason 
for our effort over the last 18 years.
    Of course we have other less than vital interests in 
Afghanistan as well, and this committee may wish to discuss 
these. But the essential purpose for the United States is to 
counter terrorism. In my estimation, we have largely achieved 
our counterterrorism objective today.
    Al-Qaida is much diminished in Afghanistan and Pakistan 
with most of its senior leaders killed, and those who remain 
marginalized. The threat from al-Qaida and its affiliates is 
greater elsewhere, including Yemen, Somalia, and Syria.
    There is a branch of the so-called Islamic State in 
Afghanistan, but I have seen no evidence that that branch 
represents a threat to the United States today. And it is 
actually under pressure from the Afghans, including ironically 
from the Taliban. This potential Islamic State threat should be 
monitored.
    I begin with this point about America's vital interest 
because that interest is at the heart of the recent agreement 
with the Taliban. The agreement could actually be retitled, an 
agreement on countering terrorism, because that is what it 
actually promises. In return for the gradual withdrawal of 
American and allied forces from Afghanistan, the Taliban have 
agreed to take steps to ensure that transnational terrorists 
will not operate from Afghanistan. On these points the 
agreement is the most significant step forward in the past 
decade.
    The agreement, however, does not deliver peace. And here I 
agree with Laurel Miller's comments. While it is a step in the 
right direction, the path to peace will be long and extremely 
difficult. We are likely years away from the agreement among 
all Afghans, including the Taliban, on how Afghanistan will be 
governed and when violent conflict will end.
    While the United States and other international players can 
set the stage for such progress, only Afghans can deliver 
compromises required to bring to an end the past 40 years of 
conflict. As Americans we get sort of fixated on our 
involvement. But for Afghanistans, this actually goes back two 
decades earlier. So a total of nearly 40 years of conflict. It 
is up to Afghans to decide if they wish to compromised and step 
forward together, or to continue to fight in a winner take all 
struggle.
    In the near term, several questions arise that will signal 
the prospects for peace. First, is the withdrawal of American 
forces really conditions-based. As some of the public 
statements reveal, or will it follow the letter of the 
agreement on a 14-month timeline? So is this really conditions-
based?
    Second, today, March 10th, the agreement calls for release 
of prisoners on both sides, but the Afghan Government clearly 
has not agreed to that release. So here we have the very first 
milestone mentioned in the agreement, and as we talked today, 
it is not being met. What impact does this early disconnect 
between the agreement and the arrangement with the Afghan 
Government? What does this early disconnect say about longer 
term prospects?
    Third, and perhaps most difficult, can the Afghan 
Government form a coherent inclusive negotiating team that is 
capable of engaging seriously the Taliban.
    Here, Mr. Chairman, you mentioned in your opening comments, 
the dueling inauguration ceremoneys that we had in Kabul does 
not bode well for some sort of coherent Afghan approach to 
dealing with the Taliban. Again, the agreement calls for such 
inter-Afghan talks, that is, the Afghan Government, broader 
Afghan society and the Taliban to begin today. Well, they did 
not begin today. So we have missed the first two deadlines, if 
you will, marked in the agreement.
    These three questions are early sign posts as to whether 
the recent agreement will lead to deeper, more durable 
solutions to the Afghan war. In short, whether the current 
agreement will be a catalyst, a precursor to a true peace 
agreement.
    Now, in closing, what can the United States do to influence 
events going forward? First, we must test the Taliban's 
commitment to fulfill the recent agreement. Our ranking member, 
I think you mentioned this in your comments. We must hold them 
to their obligations, especially with regard to 
counterterrorism.
    Second, we need to press the Afghan Government urgently to 
form an inclusive team and move into negotiations with the 
Taliban as the agreement suggests. This means the political 
elite in Kabul must come together despite the continued 
disputes surrounding last year's Presidential elections, and 
further broaden the team to represent all major elements of 
Afghan society, including Afghan women.
    We have influence with the Afghan Government, and we must 
use it, including our providing about 75 percent of the Afghan 
national budget every year. We will need to sustain this 
economic support to sustain our influence.
    And, finally, in my view, it is time to internationalize 
the diplomacy and surge of peace in Afghanistan. It is right 
that the United States took the lead up to now in crafting the 
initial agreement with the Taliban. Now is the time, however, 
to bring our allies and partners more prominently into play. 
For example, there are reports that Norway has agreed or has 
offered to host the inter-Afghan talks. That is progress.
    The international community will need to continue to 
support Afghanistan financially. We should seek a United 
Nations Security Council resolution in support of the peace 
process, bringing both Russia and China prominently on board 
and in line with the progress.
    And, finally, the likely long and difficult path toward 
peace requires a U.N. appointed senior diplomat to guide the 
parties to peace. These steps can significantly improve the 
prospects for an overall agreement.
    Thank you, and I am ready to respond to your questions.
    [The prepared statement of Mr. Lute follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

      
    Mr. Bera. Thank you, Ambassador Lute.
    Mr. Coffey.

 STATEMENT OF LUKE COFFEY, DIRECTOR, DOUGLAS AND SARAH ALLISON 
       CENTER FOR FOREIGN POLICY, THE HERITAGE FOUNDATION

    Mr. Coffey. Chairman Bera, Ranking Member Yoho, and 
distinguished members of this committee, I am honored to speak 
here today before this esteemed committee about Afghanistan. 
With your permission, Mr. Chairman, I will summarize my 
prepared statement that has been submitted for the record.
    To examine the prospects for peace in Afghanistan, we have 
to first understand how we got to where we area today. Just 
after 9/11, there were two main goals for Afghanistan. The 
first was to deny al-Qaida a safe haven. The second was to 
remove the Taliban from power as punishment for not 
cooperating. Both were accomplished with relative speed.
    As the years went by, the explanation for what we were 
doing in Afghanistan shifted from America's national security 
needs to more vague notions of Nation building. With the lofty 
goals of Nation building, defining our success in the earlier 
days of the campaign, it is only natural that all most people 
see today in Afghanistan is failure.
    But what we need in Afghanistan is actually a reality 
check. Success is not when a hundred percent of the country is 
controlled by the Afghan Government or when there is no more 
suicide bombings. Nor is success achieved when every road is 
paved, everyone goes to school, or everyone gets the right to 
vote. These are noble objectives, and we should aspire to them. 
Now, these are neither the reasons why we went to Afghanistan, 
nor are they the reasons why we should remain.
    Success is achieved when there is a stable enough 
Afghanistan able to manage its own internal security so it does 
not become a base for international terrorism once again. 
Nothing more and nothing less.
    For the Afghan people who have suffered more than 40 years 
of war, and for the American family and the American taxpayer, 
that has sacrificed so much over the past 19 years, the current 
peace plan, in my opinion, is a realistic, responsible, and 
reasonable approach to take. The Afghan Government with the 
help of the U.S. and international community has been fighting 
a Taliban-led insurgency. The goal of any counterinsurgency 
campaign is to allow those who have political grievances the 
ability to address these grievances through a political process 
and not through violence. History shows that most insurgencies 
are successfully brought to an end through some sort of 
political settlement. And this is why you can no more kill your 
way out of an insurgency than you can drink yourself out of 
alcoholism.
    Mr. Chairman, this is why the inter-Afghan talks are the 
crucial stage in this peace process. It will be no meaningful 
deal whatsoever unless there is an agreement between the Afghan 
Government and the Taliban. But for the U.S. Taliban agreement, 
there are three key issues that warrant further intention.
    First, the contentious issue of prisoner swaps. Thankfully, 
President Gani's recent comments have helped to clarify this 
matter. And as I mentioned in my prepared statement, I think 
most of the original confusion is down to the inconsistent 
wording that is used in the U.S.-Taliban and the U.S.-Afghan 
Government statements.
    Second, the so-called quote ``guarantees and enforcement 
mechanism,'' unquote to ensure that the Taliban once again does 
not harbor transnational terrorists. Since preventing 
Afghanistan from become a safe haven for transnational 
terrorism is our No. 1 priority, it is important to know what 
these enforcement mechanisms will be and how they will work.
    Finally, more details on how the U.S. can continue to 
support the Afghan security forces, if indeed all U.S. and 
foreign troops are withdrawn. This should include a possible 
commitment to fund the Afghan security forces and the 
possibility of training them in a neighboring country.
    Over the years, the focus on Nation building resulted in 
expectations set so high that even the obvious successes on the 
security front were never considered good enough. You often 
hear that the Taliban are on the front foots. Or that the past 
19 years were for nothing. This is nonsense. The Taliban today 
is nothing like the group in the mid-1990's when it seized the 
major cities like Kandahar and Kabul using tanks and military 
aircraft.
    On September 10, 2001, the Taliban controlled 90 percent of 
the country, including every major urban center and every major 
road network. Today, according to my open-source analysis, the 
Taliban probably controls about 11 percent of Afghanistan's 
districts. Since being ousted from power in December 2001, the 
Taliban has never genuinely threatened the capital of Kabul.
    In the past 19 years, the Taliban has only seized the 
provincial capital twice, and each time for only a few days at 
a time. No transnational terrorist group, including al-Qaida, 
operating from Afghanistan has successfully attacked our 
homeland since 9/11.
    Mr. Chairman, after almost 20 years in military 
involvements, maybe we should come to terms with the fact that 
until there is a political settlement, what we see in 
Afghanistan might be as good as it is going to get. And this is 
not defeat, this is reality.
    As a young Winston Churchill said in 1897 when he was 
fighting as a young British Army officer on what is today the 
modern and Afghan-Pakistan border and I quote, ``There are no 
general actions on a great scale, no brilliant successes, no 
important surrenders, and no chance for a coup de theatre. It 
is just a rough, hard job which must be carried through. The 
war is one of small incidents. The victory must be looked for 
in the results.''
    What was true in 1897 is true in 2020. Our involvements in 
Afghanistan has not always been perfect, and there will be 
setbacks in the coming months regarding the inter-Afghan talks. 
But as Churchill reminds us, ``it is a rough, hard job.''
    As long as America and its allies remain safe, and as long 
as the Afghan people get to experience some peace, then this 
process is worth a shot. I look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Coffey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Bera. Thank you, Mr. Coffey. I will now recognize 
myself for questions, and then I will recognize the ranking 
member and our other members for 5 minutes for the purpose of 
questioning the witnesses.
    You have all laid out the complexity of this issue and how 
difficult this is.
    Ambassador Lute, you have had a long career. First, 35 
years in the military, and then working at the highest levels 
of the Bush and Obama Administrations working on these very 
issues that we are talking about, and directly negotiating with 
the Taliban.
    I think you have outlined our national interest and 
objectives, which I think all the members up here would agree 
with, especially with regard to counterterrorism. Due to the 
fact that we have missed the first two milestones, that there 
is a higher probability of Afghanistan falling to disarray than 
there is reaching a political solution.
    I would be curious to know what you see the U.S. Taliban 
relationship being like moving forward. We know that--if 
Afghanistan were to fall into a civil war, we have got our 
interest on the counterterrorism side. I do not think there 
would be an appetite to get involved in the conflict, if we 
withdraw fully of our troops. And let's say Kabul is under 
siege, and there is pressure to now ramp up and send another 
100,000 troops into Afghanistan to try to save it. I do not 
think the public world will be there, and I am not certain the 
congressional world will be there. How do we balance this from 
your military experience as well as your understanding of this 
siuation as a whole, because I would hate to see that situation 
where we are watching the country fall apart into a civil war, 
Kabul under attack, and trying to decide what we do.
    Mr. Lute. So, Mr. Chairman, I think of the three potential 
options. So continued stalemate, a peace agreement of some sort 
among the Afghans and civil war. The worse possible outcome is 
civil war. We are better off staying where we are despite the 
cost at stalemate than we are letting this slip into civil war. 
And the reason for that is that it would risk our vital 
national interest. It will be uncontrollable in terms of 
monitoring and contending with transnational terrorists if 
there is complete chaos in Afghanistan.
    So the one thing we certainly want to avoid is worsening 
the situation and that would be civil war. But there is a risk 
of that. If we draw--if we withdraw precipitously and just 
leave this to the Afghans and not stay involved politically and 
not continue to finance the Afghan Government and their 
security forces, there is a real risk that we could realize 
that worst possible outcome.
    Mr. Bera. If you were to put forward your best guess on 
these three possible outcomes--I agree with you, the worst 
possible outcome is a full-blown civil war. I will not ask you 
to put percentages on there. But that means we have got to put 
our full effort in trying to find an inter-Afghan peace deal.
    I will ask Ms. Miller this next question because you have 
been in the middle of this. What are the things that we should 
be doing at the congressional level, and the administration 
certainly as well, to assist the Afghans in finding a solution 
with the Taliban that does not devolve into kind of a civil 
war? What are the prospects of the inter-AFghan peace coming 
together?
    Ms. Miller. Yes, I mean in terms of bolstering the 
prospects of the peace process to work, unfortunately, the U.S. 
has more leverage over our Afghan Government partner than we do 
over the Taliban in terms of their conduct in the peace 
process. But there are problems on the Afghan Government side, 
and Doug alluded to them, that they are not organized for the 
talks, they do not have a coherent negotiating team, they have 
not been able to develop consensus positions on their side. So 
there is a need to be exerting leverage on the Afghan 
Government side to get them to be willing to negotiate in good 
faith.
    I mean, there has been a lot of discussion of the concern 
about the maximalists on the Taliban side and those who may not 
be ready to make peace. But there are also maximalists on the 
Afghan Government side, those who really are not genuinely 
interested in any kind of agreement that incorporates 
compromise.
    The U.S. also needs to be engaged intensively, 
diplomatically with the countries of the region. With Pakistan, 
that continues to have--continues to have influence over the 
Taliban, and although not directly with Iran, indirectly 
through other governments that do have relationships with Iran. 
And so that has to be an ongoing feature, even if the peace 
process gets going, not just to get it to launch. So there has 
be to very active diplomacy.
    There are also a number of practical steps that the U.S. 
can take including to ensure that a mediator is appointed. I do 
not think it has to be a U.N. person. It could be another 
individual. But to structure the--to ensure that the peace 
process itself is structured in a way that maximizes the 
potential for it to operate effectively. And there are a lot of 
lessons learned around the world from peace processes that can 
be applied to that.
    In terms of Congress' role, I do think at some stage if 
there is a peace process going, that if the U.S. is in a 
position to signal that it will continue to provide some 
financial support, if there is a peace agreement for its 
implementation, it is something that can be useful in enabling 
the administration to exert what leverage the U.S. has.
    Mr. Bera. Thank you for that. I am out of time. Let me 
recognize the Ranking Member Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And thank you all for 
testifying. And I am not sure where to start here.
    I am going to start with you, Ambassador Lute. You were 
talking about all discussions should focus and begin with 
national security. And I you know I agree with that. And then 
we were talking about peace in Afghanistan. How do you define 
that because if you look at the history? I mean, there has been 
corruption, there has been all of this stuff going on--you 
know, I am doing a quick search on that--for a long time.
    And then prior to the war, as Mr. Coffey, you said Taliban 
controlled roughly 90 percent of that territory. So it was kind 
of a tribal type of organization, right, as far as the 
cohesiveness of any kind of structure in there.
    So what do we define as peace? Because I agree we need to 
back out of there. We want to make sure that there is not a 
safe haven for terrorist groups. What is an acceptable level of 
conflict that we know is probably going to be there.
    Mr. Lute. Well, I think peace would involve on the conflict 
spectrum essentially an end to this insurgency. So the Taliban 
and the Afghan Government would have to come to compromise 
terms that undoubtedly given the Taliban's position will 
feature some sort of compromises that share power between the 
Afghan Government and, by the way, the other Afghan political 
lead. Because as we have seen, the Afghan Government itself is 
not coherent----
    Mr. Yoho. Right.
    Mr. Lute [continuing]. But among those parties, and the 
Taliban.
    So peace would fundamentally mean that the fighting ends 
because the Taliban believe that they are sufficiently 
represented in a new power-sharing arrangement, perhaps a 
geographically bifurcated arrangement where the Taliban, for 
example, would have more control over rural Pashtun areas, 
while the political--the standing political lead in Kabul more 
control over the large urban areas. But some sort of geographic 
power-sharing arrangement that allows the Taliban to set down 
their arms. And that will be as we at one time said, Afghan 
good enough.
    Mr. Yoho. Is that something that you all feel like Norway, 
the Norwegians can broker? Because when we sat with our 
negotiator, and he was saying they came to kind of a consensus 
with the people of the Taliban that they would accept some of 
these negotiations on the peace deals, not all the factions of 
the Taliban had agreed to who was in charge.
    And so if we are not actively negotiating, is that going to 
fall apart in how strong are the Norwegians going to be able to 
kind of broker that and possibly help on that?
    Mr. Coffey. Actually, I think that is a very good point, 
and it is a reminder of why we need to manage our expectations. 
Even if there is some sort of inter-Afghan agreements, it will 
take a very long time, it will be a very messy process. And at 
the end of it, I do believe that there will be some sort of 
insurgency remaining in the country.
    India, the world's largest democracy, fights two major 
insurgencies against Maoist rebels and Assam separatists in 
their country today. Great Britain until the mid-90's fought an 
insurgency in northern Ireland. Even on--in January, there are 
two cases of attempted car bombings in northern Ireland.
    Mr. Yoho. Right.
    Mr. Coffey. So there will be a insurgency remaining in some 
parts, in some fashion for the foreseeable future. But the goal 
is to find a political settlement that brings peace to most of 
the country that denies the chaotic space that facilitates and 
allows for transnational terrorism to operate and take root.
    Mr. Yoho. You know, sitting on this committee, I have had 
the privilege to talk to a lot of different countries around. 
And one of the things that was brought up by a country, and I 
will not name it, is they would be willing to negotiate a peace 
deal. They are a Muslim country because they understand that--
and with us trying to negotiate and not understanding tribal 
cultures and things like that, and then the things that we 
recommend, women going to school, all of those things we 
believe here, you know, how hard is that for us to move our 
agenda forward being a Western democracy versus a Muslim 
country willing to step up and help negotiate that. Any 
thoughts on that, Ms. Miller.
    Ms. Miller. I do not expect the U.S. to be very involved in 
the substance of what a peace agreement is.
    Mr. Yoho. That is what I see.
    Ms. Miller. I mean, frankly, I do not think it is 
realistic.
    Mr. Yoho. I do not either.
    Ms. Miller. And I do not see at this stage in time this 
administration or even a future administration being terribly 
interested and insisting on particular substance for the deal.
    I think the role that a mediator would play is truly that, 
mediating and trying to help the two sides to bridge some 
differences. But I do think there is a reality that we should 
be clear about, which is a peace agreement means the Taliban 
being in some substantial degree of power in Afghanistan. And 
the extent to which that means changes to the way that 
Afghanistan looks today is something that will have to be 
determined during the course of--during the course of a peace 
negotiation.
    But that is what making a peace deal means. There is not 
some magical reality that there is a peace agreement and the 
Taliban do not continue to----
    Mr. Yoho. I am going to have to cut you off because I am 
out of time.
    Ms. Miller. Sure.
    Mr. Yoho. I appreciate what you are saying. And I hope as 
we back out that peace stays and that we do not see a 
resurgence of radical groups. Thank you.
    Mr. Bera. Let me recognize the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you. I share the sentiment of my friend 
from Florida, and that is what I am worried about.
    Mr. Coffey, you talked about the security of Kabul and 
Kandahar, that Taliban had not got their claws on those cities 
since 2001. Have you been to Kabul and Kandahar?
    Mr. Coffey. Yes, I have. Both.
    Mr. Connolly. And did you walk around freely not worried 
about security?
    Mr. Coffey. Well, I served in the capacity of the U.S. Army 
in 2005----
    Mr. Connolly. Right.
    Mr. Coffey [continuing]. And then I served as an aide to 
the British Defense Secretary.
    Mr. Connolly. I can assure you and I am sure you will 
recall there are hardly secure places in terms of individual 
mobility. So I think you overstayed. The fact that the Taliban 
does not control it hardly means they are secure places and 
that they have secured them. We have not.
    And it might also have something to do with the fact that 
you and your colleagues bravely served in those cities which 
prevented the Taliban from retaking them. Just spitballing 
here. And once we withdraw, which we apparently are doing 
without conditions, as Ambassador Lute warns us about, the 
security of those places may very well collapse. We will have 
to see. So I just caution you, we cannot facile about security 
in Afghanistan, especially once there is a U.S. withdrawal.
    Ambassador Lute, were there clear conditions with metrics 
on the initial so-called peace agreement Ambassador Khalilazad 
signed with the Taliban?
    Mr. Lute. So my reading of the agreement, which is public, 
and I know of no other annexes and so forth. I am only reading 
what is public. The conditionality is very vague. And 
ambiguous----
    Mr. Connolly. It is what?
    Mr. Lute. It is very vague----
    Mr. Connolly. It is very what?
    Mr. Lute [continuing]. And ambiguous. It suggests that--for 
example, on the exchange of prisoners that it would actually 
take place today, but yet the counterpart agreement, U.S.-
Afghan Government does not make that assurance. And as we have 
seen, that has broken down.
    Mr. Connolly. It has also been made clear by President 
Ghani that he did not agree to the prisoner exchange.
    Mr. Lute. Exactly. So the conditions I think are ambiguous.
    Mr. Connolly. God this sounds--I am of an age and maybe you 
are too. This has a eerie resemblance to some other peace 
agreement where the United States sought to withdraw almost at 
any price. Yes, that is right.
    The Paris Agreement between Henry Kissinger and Le Duc Tho 
that led to the collapse of the South Vietnamese Government. It 
seemed at that time and certainly in history, that that was a 
fig leaf for the United States to justify its getting out at 
the expense of an awful lot of people who collaborated and 
cooperated with the U.S. Government. And I am a little worried 
about that.
    Mr. Coffey says forthrightly that the only goal that the 
United States had or has in Afghanistan is the fight against 
terrorism. Now I would argue that was absolutely an accurate 
statement for 2001, 2002. But you cannot pretend, as Mr. Coffey 
apparently wants us to do, that the intervening 20 years have 
not occurred. Half the population of Afghanistan are called 
women. And we have led the liberation of women. We have 
insisted they be educated, that they be allowed outside of the 
home. And every one of those women is at risk if the Taliban 
takes over. Let alone government officials, let alone 
government officials, let alone intellectuals, all of whom were 
targeted the last time the Taliban was in charge.
    Now the question is Mr. Coffey says it is not the same 
Taliban as 2001. Do we know that? Ms. Miller, am I right to be 
concerned that there are people at risk if we simply withdraw 
precipitately?
    Ms. Miller. Yes, you are. I mean, we do not really know to 
what extent the Taliban has evolved. They may have to some 
extent. They claim to have. But they are extremely vague 
themselves about what their political vision is for 
Afghanistan. And if there was a withdrawal without a peace 
agreement, I do think you would see an intensified multisided 
civil war, probably reminiscent of what we saw in the 1990's.
    On the question of the conditions, I agree with Doug that 
they are extremely vague. You could read that 1 of 2 ways. You 
could think--if you do not think the U.S. should withdraw, you 
could think that is a good thing because it gives the U.S. wide 
policy latitude to decide that conditions--unspecified 
conditions are not met. On the other hand, it also gives the 
U.S. the policy latitude to simply abruptly withdraw whenever 
it chooses.
    Mr. Connolly. Yes. My concern is that there are unwitting 
victims who trusted the United States and its allies for 20 
years. We may be tired of the war. We have reason to be tired 
of it. But we are where we are now. We are not back in 2001. 
And we created these circumstances domestically in terms of 
higher expectations. And every one of those people with those 
expectations is at risk of a Taliban takeover if we withdraw 
precipitately without conditions that are clear with metrics 
and with the consent of the Afghan Government.
    Otherwise, this looks like a cut and run kind of deal to 
protect the United States and only the United States.
    Thank you, Mr. Chairman.
    Mr. Bera. Thanks. Let me recognize the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. I am going to be the 
last guy up here to blame the United States for the problems in 
Afghanistan. We might have contributed to them with good 
intentions that went wrong, but they were good intentions 
nonetheless. And it is up to the Afghan--the problems of 
Afghanistan are born in Afghanistan. Let me just say that. And 
just to continue the record regarding Vietnam, let's remember 
that there was a Congress that removed all funding from the 
military in Vietnam and left a Republican President no choice 
but to as, some people say, abandon our friends there.
    With that having been said, maybe Mr. Coffey, who are we 
depending on to ensure, as I understand it, that the Afghan 
soil will not be used against the security of the United States 
and its allies. Who are we depending on to make sure that that 
is the case?
    Mr. Coffey. In my opinion, this is one biggest questions 
resulting from the agreement with the Taliban. All it says is 
that there will be some sort of enforcement mechanism. There 
are no details whatsoever what this will be. And I think as 
policymakers start looking at this in more detail, we have to 
be worried about second and third order effects.
    For example, just one hypothetical scenario I could quickly 
paint is that we have the Gulf States are the trusted 
intermediary to observe this. And then the sizable amount of 
Gulf State military focus and capability and planning and 
resourcing is now devoted to Afghanistan at a time when Iran is 
being very active in the region.
    So, again, we have to think about the second and third 
order effects on how we go about implementing this policy. But 
I agree it is completely vague. And right now, if you take it 
at face value, it is basically trusting the Taliban which is--
--
    Mr. Perry. Well let me just add for the record too that I 
like most Americans want to see us finish the mission and come 
home and be out of Afghanistan. At the same time, I find it 
abhorrent that we would hand any bit of it over to terrorist, 
the enemy, et cetera, and leave it in those circumstances. But 
I think your point is well made, and that is a huge concern.
    Let me ask--and if you want to impart on that a little bit 
more just for the interest of time here.
    Mr. Ambassador, in light of what Mr. Coffey said, assuming 
you kind of agree with that, if you want to embellish the 
point, what are our options as the United States if the 
Taliban, or the Afghan Government for that matter does not live 
up to its end of the deal? What are our options?
    Mr. Lute. Well, we conduct--Congressman, we conduct 
counterterrorism operations offshore and from secure land bases 
all over the world where we do not have, as we do in 
Afghanistan today, 13,000 American troops. Which actually--the 
presence of those troops in no small part is the rallying cry 
for the Taliban.
    Mr. Perry. Sure.
    Mr. Lute. So there are techniques and methods that were not 
on the books in 2001 when we were attacked that over the last 
20 years we have not stood still, and we have much greater 
intelligence capacity, especially penetration in that region 
than we had prior to 9/11. We have much greater, much more 
sophisticated strike options to enforce the counterterrorism 
provisions of the agreement than we had 20 years ago.
    So I--I believe we can conduct counterterrorism in 
Afghanistan if necessary to enforce the agreement, much as we 
do elsewhere around the world.
    Mr. Perry. So let me just develop that a little bit. Would 
you agree that some of our intelligence prowess in Afghanistan 
enhanced as it is prior to or in comparison to 20 years ago, 
one of the functions of that must be because we have human 
intelligence on the ground? We are all over, the United States 
and its allies are all over Afghanistan right now. But once we 
leave, certainly I think that that is going to be--there is 
going to be--it is going to be diminished. Would you agree or 
not agree?
    Mr. Lute. The presence of 13,000 American troops and----
    Mr. Perry. Not only 13,000 American troops. Not only. You 
know, okay, go ahead.
    Mr. Lute [continuing]. And others, right, do give us human 
intelligence that is very useful. But we also have 
sophisticated technical intelligence that we did not have at 
the same time.
    Mr. Perry. So with the political environment here, what we 
are potentially expecting this week or in the following weeks 
regarding an AUMF, we might have the capability--we have the 
capability to reach out and touch anybody around the world. But 
is the political will going to be there to do that? And are we 
going to have the approval of the Afghan Government to come to 
their country and conduct counterintelligence or 
counterterrorist strikes in a sovereign nation without our 
presence there on the ground?
    Mr. Lute. Well, if they approved of our presence on the 
ground, then it seems to me even with the diminished presence, 
they would approve of our support----
    Mr. Perry. We are making an agreement right now to leave.
    Mr. Lute [continuing]. I mean, we all agree with that. As 
to the potential of an AUMF, I mean, I am not the best expert 
in the room in terms of prospects of a new AUMF. But the one 
that exists gives us sufficient latitude, as we have 
demonstrated in last 20 years, to strike pretty much wherever 
we want to around the world, if American security is at risk.
    Mr. Perry. Thank you. I yield.
    Mr. Bera. Let me recognize the gentleman from California, 
Mr. Sherman.
    Mr. Sherman. A cynical politician--and I am sure there are 
none of them here--would say that the administration would 
benefit the most with the maximum possible withdrawal 
accomplished by this fall so long as the Taliban did no have 
the maximum possible power until next winter.
    The Israelis have come to the conclusion that often they 
cannot destroy a terrorist effort. They instead talk of mowing 
the grass. And so we either stay in Iraq--or rather in 
Afghanistan, or we use our air power to make sure that 
terrorist groups do not have anything as big as Tora Bora ever 
again. We are not going to be able to prevent them from finding 
an apartment to plot something. They plotted 9/11 in an 
apartment in Hamburg.
    We went into Afghanistan, and we failed. We--at the 
beginning to create a viable and popular government. We did so 
in part because we were distracted by the invasion of Iraq. But 
in large part we failed because Pakistan did not want us to 
succeed. Pakistan would spiel itself at great strategic problem 
if it had enemies both to the east and the west. And the Durand 
Line which is internationally accepted border between 
Afghanistan and Pakistan is accepted internationally except by 
Afghanistan.
    Does Pakistan need to keep Afghanistan weak to protect its 
pushdown inhabited territory and/or prevent it being between a 
hostile and being a hostile Pakistan? Ms. Miller?
    Ms. Miller. I would not necessarily say Pakistan has to 
keep Afghanistan weak. But Pakistan does want the Taliban back 
into some share of power in Afghanistan. And they want that----
    Mr. Sherman. And if you are aiming for weakness, you would 
want neither the government in Kabul nor the Taliban to be in 
control--has the Taliban ever accepted the Durand Line? Could 
any Afghan accept the Durand Line?
    Ms. Miller. No. I mean the Pakistanis like to point out 
when they are of the mind to show the limitations of their 
influence over the Taliban. They like to point out that when 
the Taliban was the government in Afghanistan, they also did 
not recognize the----
    Mr. Sherman. And there was the--even the Taliban did not 
control the north. If one wanted to make sure that an Afghan 
Government could not unite the whole country, be strong and 
perhaps covet Pakistani territory, you would look at the last 
40 years and say mission accomplished.
    But I want to go on to something else too. On Friday two 
gunmen hit the crowd at a Kabul event. They seemed to be trying 
to kill Abdullah Abdullah. Abdullah Abdullah is not on great 
terms with President Gani. He is not on great terms with the 
Taliban, but neither seems to have been the source of this 
attack or at least publicly. Instead, ISIS claimed 
responsibility for the attack. Should we believe them? Was this 
attack from ISIS?
    Ms. Miller again.
    Ms. Miller. I do not have any independent information on 
that. They did claim it. And it is plausible given that this 
was a gathering that was predominantly the minority Shia who 
have been regularly targeted by ISIS in Afghanistan.
    Mr. Sherman. And I--we have got two men, both inaugurated 
as President on the same day. Are we going to have in effect a 
three-way coalition out of this peace deal with the Taliban 
being the most powerful of the three partners?
    Ambassador Lute.
    Mr. Lute. So I think this points to the matter that before 
we can get into a conversation or the Afghans can get into a 
conversation with the Taliban, they have to have a intra-
Government conversation with themselves. And if you compare----
    Mr. Sherman. One would hope the other way would be to go to 
have the Taliban--are there--the Taliban in could effect be 
kingmaker or strategic center----
    Mr. Lute. I think----
    Mr. Sherman. Are there policy differences of a major import 
between Gani and Abdullah Abdullah? Is this about policy, or is 
this about just which one of them run?
    Ms. Miller, I think you have an opinion on this.
    Ms. Miller. Yes, it is about power. It is not about policy. 
And, unfortunately, Afghanistan has a system in which an 
overwhelming degree of power is concentrated in the hands of 
the President. And that is against the backdrop of the 
patronage-based political system.
    So it is a winner take all kind of system. They might 
purport to have some policy differences. But that is not what 
this is about. It is about who controls the reign of power and 
patronage.
    Mr. Sherman. We could have done a much better job in 
spending more time before we establish an Afghan Government in 
making sure that that government was acceptable to Pakistan and 
did not have a winner take all corrupt patronage system.
    But we did what we did and we are where we are.
    And I yield back.
    Mr. Bera. Let me go ahead and recognize the gentlelady from 
Missouri, Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    And thank you to our witnesses. I appreciate the 
opportunity to evaluate the steps this administration is taking 
to end America's longest-running war.
    Much work remains to be done, but I am hopeful that the 
agreement the administration has negotiated will lay the 
foundation for a lasting peace in Afghanistan. After nearly 20 
years and 2,315 brave Americans lost, it will take courage and 
pragmatism to bring an end to the conflict. However, security 
in the region must remain central to the peace process.
    Ambassador Lute, I want to followup on Mr. Perry's line of 
questioning. In your testimony, you called the President's 
deal, quote, ``an agreement on countering terrorism.'' As we 
work toward implementation of this counterterrorism agreement, 
we must be clear about the Taliban's obligations, and I think 
that is one of our big concerns.
    What consequences, again, should the United States set for 
a Taliban backtracking on counterterrorism? You talked about 
additional strike actions. What else have we got to hold their 
feet to the fire here?
    Mr. Lute. Well, so we have two main elements of leverage 
here. One is our presence. So we could stop the troop 
withdrawal if the agreement is not adhered to by the other 
party. So, if the Taliban--I think we will have reasonably good 
insight in this regard. We will have good intelligence. If the 
Taliban do not abide by the letter of the agreement, then we 
can simply stop the troop withdrawal.
    The other major influencing factor we have is this 
continued funding to the Afghan Government. We pay--Americans 
pay $4 to $5 billion a year to keep the Afghan Army and police 
in the field, and we completely take that government 
responsibility off the Afghan Government, and we pay that.
    In addition, the international community pays another 4 
billion, which is about three-quarters of the Afghan Federal 
budget. So the substantial international funding here gives us 
a lot of leverage, and we should use that leverage.
    Mrs. Wagner. We should use that leverage.
    I believe our future engagement with Afghanistan must 
include ongoing support for the Afghan national defense and 
security forces to enhance long-term stability in the region; 
however, it will be difficult, I think, to balance support for 
the security forces with our commitment to an Afghan-led peace 
process.
    Mr. Coffey, you mentioned that the United States should 
work with regional partners to find a way to continue training 
Afghan soldiers while inter-Afghan talks progress. How should 
the United States work with Central Asian nations to build the 
infrastructure for U.S.-Afghan training programs if American 
troops are being, in fact, drawn down?
    Mr. Coffey. I think one region in this whole campaign in 
Afghanistan that has been neglected the most is Central Asia. 
The Central Asian republics----
    Mrs. Wagner. I agree.
    Mr. Coffey [continuing]. Want to play an--well, 
specifically, Uzbekistan and Kazakhstan want to play a bigger 
role. They realize they have a lot at stake. And they also 
realize they have a lot of opportunities available to them if 
things in Afghanistan turn around.
    And we have governments in both Kazakhstan and Uzbekistan, 
especially in the post-Karimov era, that are wanting to play 
ball with the United States when it comes to Afghanistan, and 
they have played a leading role in development assistance in 
Afghanistan.
    So I think the U.S. should be figuring out, gauging, taking 
the temperature with these countries on what role can they 
play, not only for perhaps training Afghan security forces 
outside of Afghanistan, but, if we are going to fully withdraw 
U.S. forces in 14 months, then maybe having an over-the-horizon 
force that is very close by, will send some sort of message or 
act as some sort of deterrent, in addition to other things as 
well, but some sort of over-the-horizon force in the Central 
Asian region that could rapidly respond to anything that pops 
up in Afghanistan.
    Mrs. Wagner. Mr. Coffey, you also wrote that the goal of 
any counterinsurgency is to allow those with legitimate 
political grievances to address those grievances through the 
political processes, and not through violence.
    Mr. Coffey. Yes.
    Mrs. Wagner. Would this entail some sort of a power-sharing 
agreement between the Taliban and the Afghan Government?
    Mr. Coffey. I would say that this is relative to how the 
Afghans view what is legitimate or not, or what is a political 
grievance or not. And this is why, as Americans, as we enter 
the intra-Afghan talks, we have to resist the temptation to try 
to get too involved at that stage.
    The Afghans, Afghan being the Afghan Government and civil 
society, and the Taliban are going to have to determine how the 
future arrangement will be.
    Mrs. Wagner. Thank you.
    I have run out of time, Mr. Chairman. Thank you. I yield 
back.
    Mr. Bera. Let me recognize the gentleman from Florida, Mr. 
Mast.
    Mr. Mast. Thank you, Mr. Chairman, and I thank you all for 
your comments today.
    You know, like many, like many of my colleagues and some of 
our panel, I have had the honor of going out into the dark and 
killing our enemies. It is an honor to do that for the United 
States of America.
    I think daily about the toll. I see it every day--I have 
mentioned it before--as I walk into the Rayburn House Office 
Building, you walk in through our horseshoe entrance, and you 
see the wall with the names of our fallen from the war on 
terror. I think about it with the men and women that I have 
seen in places like Walter Reid, those that have been targeted 
by snipers, those that have ventured across fields of land 
mines and improvised explosive devices, those whose armored 
vehicles were struck, those that were in downed aircraft.
    I think about the empty place settings at the tables of our 
Gold Star families. Every servicemember, every Gold Star family 
should have their chest out with pride for what their 
servicemembers have done in defense of this Nation. They kept 
our enemies off of our shores. They kept the fight abroad, and 
served with honor each and every day.
    That being said, I absolutely believe that withdrawal from 
Afghanistan needs to occur. I do not believe that we should be 
paying the financial and the human toll of trying to repair or 
fix Afghanistan. I do not believe that we can fix Afghanistan, 
personally.
    And, in my opinion, if Afghanistan is captive by tyrants, 
then they need to fight themselves to remove themselves from 
that captivity.
    As I said, I think we need to withdraw. And, if peace comes 
with withdrawal, then even better. But, if we withdraw and 
Afghanistan allows itself to become a place again where 
terrorism can flourish and Afghanistan is a place where it 
becomes a launching point for terrorism, I would offer this as 
a warning. I believe that the American response, if needed 
again, would be far more indiscriminate than it has been to 
date. It would be far more harsh than it has been to date if we 
were ever forced to return there again, and I offer that as a 
warning to Afghanis.
    Now, I want to offer this as well: Whether or not 
Afghanistan and the Taliban are the same today as they were in 
2001, I know for a fact that the United States of America is 
not the same today as it was in 2001. Our ability to have 
geospatial intelligence, cyber intelligence, financial 
intelligence, our ability to go out there and target our 
enemies is totally different than it was when we began this 
war, and it is in that that I also offer warning for allowing 
Afghanistan to become a launching point, but it is in that that 
I would ask this question to you all.
    I believe that a nation can only fix itself. We, as 
Americans, we know that better than anybody. We fixed 
ourselves. We removed ourselves from tyranny. And, to do that, 
it took toil and suffering and sacrifice.
    So, with all of the comments I have heard about not wishing 
for Afghanistan to fall back into civil war--I am not saying 
that I wish for war, but I see civil war as being the best 
possible avenue within Afghanistan for them to remove 
themselves from the tyranny that they fall under, being the 
Taliban.
    Why do you all not wish for that conflict to occur, for 
them to not reach inside internally and remove the cancer that 
is inside of them and allow themselves to make of their nation 
what they want? Why do you not want to see that occur?
    Mr. Lute. So let me take a stab at that.
    My estimate is that, if we withdraw precipitously and this 
slips into civil war, there is a good chance that the Afghan 
Government would not prevail. I think that, without--despite 
our efforts over 20 years to build capable Afghan security 
forces, both Army and police, they are still highly dependent 
on us just to maintain the stalemate today.
    So, if you withdraw that support, I think we slip into a 
position of Taliban advantage, especially in the rural Pashtun 
south and east. And this, of course, is along the models of how 
the Taliban seized power in the mid-nineties, after civil war, 
after an Afghan period of civil war.
    So I am concerned with the outcome of the civil war, and I 
do not think it would be one--I do not think it is a sure thing 
that the Afghan Government would prevail.
    Mr. Mast. I thank you for your comments.
    I thank you, Mr. Chairman.
    I would offer this one thing to Afghanis: Give me freedom, 
or give me death.
    Mr. Bera. Thank you.
    If the witnesses would indulge, I think we will do a second 
round of questions for those members that have some, and I will 
recognize myself for that second round.
    First off, I thank all of you for your service, and you 
have outlined the complexity here. If I think about this 
conflict in simple terms, with the three different power 
centers. Obviously, you have the Taliban. You have President 
Ghani, who I think largely is supported by the Pashtun sector. 
And then you have Abdullah Abdullah, mostly aligned with the 
northern alliance. That is simplistic, but that generally 
outlines some of the complexity.
    Additionally, I do not know the exact unemployment rate in 
Afghanistan, but I am going to guess it is relatively high.
    I am also going to guess that the youth unemployment rate, 
the number of young men that are unemployed, is relatively 
high.
    I am going to guess that there is a sizable number of 
former Taliban fighters who have been displaced out of 
Afghanistan that may be residing over the border in Pakistan, 
et cetera, that, if there is peace, would return to Afghanistan 
with nothing to do, without jobs, et cetera.
    I am going to suggest it is going to be very difficult for 
this body to continue to justify supporting 75 percent of the 
Afghan economy over a long period of time when all of us who do 
townhalls back home listen to our own constituents talking 
about how we cannot build our own infrastructure, fill the 
potholes, make college affordable. The difficulty of justifying 
that level of financial support for Afghanistan will 
increasingly be difficult if the Afghans cannot come together 
in some political settlement to govern their own country.
    And that is not to say that I do not want us to figure out 
some level of sustained peace, whatever that looks like. We 
have invested both blood and dollars there, and we want to give 
the Afghans a reasonable chance of success. We have also got a 
counter drug mission there with our DEA, et cetera. The opium 
trade seems to be the one economic driver that is sustainable 
in Afghanistan,
    So we do have interests there. That really is not a 
question, but I am simply capturing the complexity of the 
economic situation there. Afghanistan is also in a neighborhood 
where India might have an ability to provide some economic 
development and financial system. Pakistan is not going to want 
India to be that close.
    Ms. Miller, you have grappled with this for a long time. Is 
that, again, just at a highly simplistic level, the complexity 
of what we face?
    Ms. Miller. Yes, and I think you have illustrated a lot of 
the complexities, and it is important to remember that a peace 
agreement, even if it happens, is a limited vehicle for solving 
these kinds of problems. It can ideally reduce levels of 
violence considerably by ending the main insurgency even if 
there is some continuing violence, but it is not going to solve 
all of Afghanistan's economic problems, the drug problem, et 
cetera.
    It would remove one of the big obstacles to economic growth 
in Afghanistan, which is the ongoing conflict, but Afghanistan 
is a place that--I mean, it is in a poor, arid, landlocked 
country that has always been dependent on external resources in 
some form or another, and I would expect that to continue for a 
lengthy period of time, even if there is a peace agreement.
    Mr. Bera. And, Ambassador Lute, I agree with your 
assessment that, if there was a civil war, that it is not a 
given or it is not even a likelihood that the Afghan security 
forces would prevail here. The Taliban, as hardened fighters 
may actually be in a better position.
    The U.S. has made large investments in trying to create a 
capable Afghan security force and we have been at it for years 
now.Some of that has to come from within. We have equipped them 
probably with equipment that they do not know how to use, or 
cannot use in a real capable fashion. You hear the stories of 
folks just dropping their weapons and cutting and running.
    Mr. Mast pointed out that democracy and freedom almost have 
to come from within, and you have got to fight for it. We have 
seen in our own history that we have shed blood to protect our 
own individual freedoms, our own values of democracy.
    What is your assessment of the Afghan security forces?
    Mr. Lute. So I do not think we have shown adequate progress 
given the level of investment. And, if there is a number--let's 
say the top-five lessons from the last 20 years, this lesson 
about our ability or maybe the limits of our ability to 
generate indigenous security forces in a place as foreign to us 
as Afghanistan and as isolated and poor as Afghanistan ought to 
be in the top-five lessons.
    Too often--first of all, we started late. We did not get 
serious about funding the Afghan security forces and putting 
manpower to the Afghan security forces until about 2008, 2009, 
so we are already 7 or 8 years into this.
    Second, we created--we tried to mirror image the Afghan 
forces by making them look like us. We did not always put our 
best advisers on the front lines. We economized in terms of our 
advisory effort. And, frankly, we got the Afghan security 
forces that we paid for, and we poured money in sort of 2010, 
2011, over 10 billion a year for those 2 years, but that was 
overspending, because it could not absorb that kind of 
investment.
    So there are all kinds of rich lessons here to be explored 
in terms of our ability to build the Afghan forces.
    Quite frankly, we had pockets of our quality in the Afghan 
forces. The commandoes, the special forces are quite good. 
There are elements of the air force that are quite good. But 
the rank and file of especially the police and the regular Army 
are insufficient in my view to provide security for 
Afghanistan.
    That is why the big hope here is that you decrease the 
violence not by imposing security, but by compromise in a 
political deal. So you take the Taliban off the field because 
you offer them a spot in the politics, and that is the promise 
here.
    Mr. Bera. Let me recognize the ranking member, Mr. Yoho.
    Mr. Yoho. No. I think it is very interesting which way we 
go. You know, you have got a country that I think the average 
literacy rate is what, 43 percent?
    Mr. Lute. Illiteracy, or literacy?
    Mr. Yoho. Illiteracy, yes.
    Mr. Lute. It is----
    Mr. Yoho. It is high. And so you have got an uninformed 
electorate, and we know, like in our country, you know, our 
Founding Fathers said, as long as you have a well-informed 
electorate, you can keep a republic, and not that they have a 
republic, but it is--you have got to start at the basics, and, 
if you look a the population, it is 18 million. I think the 
average age is 18 years of age.
    So you have got a whole group of people that have known 
nothing but war. This is what they have grown up in. This is 
all they know. They do not know, you know, what we are trying 
to invoke or place in there. And it is the good work that our 
military has done. You know, I think that we have done that.
    Ambassador Lute, you were talking about our goal according 
to the peace deal, is to prevent the harboring and staging of 
organizations that threaten the security of the United States. 
It is in the peace deal. And we have the technology. We can 
stay here. We can be in Colorado. We can monitor, and we can 
take out people. We have certainly seen that with Soleimani.
    But, by doing that, it breeds more of those type of 
beliefs, the radical jihadists that are going to be insurgents. 
There has got to be a different avenue that we can go, and I am 
all for having a third country come broker a deal. I would 
prefer a Muslim country. I know India has offered to help. 
Pakistan despises that. But, if they do it economically, I am 
all for that, because I think the more people that are invested 
in there that we can work with--not an Iran--you know, I think, 
if we work toward that--and that is why I like the idea--if the 
Norwegians can do that, if they are willing to take that on, 
man, I will support you any way.
    And I think we should ease out of that, but I do not see a 
good solution to coming out of this. You know, you have got the 
Afghan Government, the Ghani government. You have got Abdullah 
Abdullah. As you said, he thinks he is in charge. Ghani thinks 
he is in charge. And the people within the Taliban, there is 
different factions that one group has agreed they are in 
charge, but the other ones do not think that. They do not agree 
with that.
    And, you know, God bless the people of Afghanistan. I just 
hope there is a more cohesive way that we can come out of that.
    I guess my question is: Are you seeing any influence from 
Iran disrupting the peace process, or any other country--China, 
Russia, anybody? And I ask you that in that--those countries 
would love to have us stay over there, stay involved, stay 
distracted. Anybody?
    Ms. Miller.
    Ms. Miller. There is a lot of hedging going on, and so all 
of these countries, all of the neighboring countries, and the 
near neighboring countries have their friends and groups that 
they have influence over, you know, Greece by money.
    Mr. Yoho. Yes.
    Ms. Miller. And the hedging, is my understanding, has gone 
up. That is not the same thing as trying to disrupt the peace 
process. I mean, even Iran would benefit from a somewhat more 
stable Afghanistan, and there are limits to how much they can 
hedge with the Taliban given that there is a lot of bad blood 
between Iran and the Taliban. So I do not think they want to 
see them back in a monopoly of power----
    Mr. Yoho. Right.
    Ms. Miller [continuing]. In Afghanistan just to annoy the 
United States, but it is--you know, I think this is part of the 
reason why you are going to see a lot of trouble ahead in the 
peace process, is that rallying all these countries to be 
working on the same page is going to be very difficult.
    Mr. Yoho. Is anybody willing to secure the gains that we 
have gained, you know, with women in education and things like 
that--is anybody willing, outside of the United States of 
America, to keep those positive gains? If we were to withdraw, 
is the Taliban going to be there? Is the Ghani government going 
to be there, Abdullah, or any other country going to say, you 
have got to keep this here?
    Ms. Miller. I mean, there are people within Afghanistan, 
including some associated with the Ghani government and with 
Abdullah and the other factions.
    Mr. Yoho. But do they have the will to do that, or the 
means?
    Ms. Miller. To some extent, they have the will. How much 
this is going to be prioritized is another question, but, 
within the countries of the surrounding region, I do not think 
this is a prioritized matter.
    Mr. Yoho. I agree.
    I will yield back. Thank you, Mr. Chairman.
    Mr. Bera. Thank you.
    Mr. Perry, let me recognize you for----
    Mr. Perry. Hey, thanks, Mr. Chairman.
    Mr. Ambassador, keeping on with discussion previously about 
our options if the Taliban or the Afghan Government does not 
come clean or does not fulfill their portion of the agreement, 
understanding today is a day where milestones are supposed to 
be occurring, does this allow the United States to change the 
timeline of removal of any, all, or do we just continue to 
reduce our complement regardless of their actions, or how tied 
in are we, or what does this impose upon the United States? How 
locked in are we to comply?
    Mr. Lute. Well, I guess the next--Congressman, the next 
several days or even weeks will sort of answer our question, 
because the agreement itself in my reading is vague enough and 
ambiguous enough for the administration to have choices.
    Mr. Perry. Okay.
    Mr. Lute. You know, maybe--so maybe it was specifically 
designed that way, but, on the one hand, we can say, Look, 
there have been violations of the agreement here, and, 
therefore, we are going to withdraw faster because the 
agreement has been violated,'' or we are going to stop 
withdrawing, and----
    Mr. Perry. And, of course, the Taliban could say, ``Well, 
you have not withdrawn, so you have not shown any good faith, 
so we are going to continue the things that we do here,'' 
right, and----
    Mr. Lute. Well----
    Mr. Perry [continuing]. That could be part of the equation 
as well?
    Mr. Lute. That is right, and then we would see a 
breakdown----
    Mr. Perry. Yes.
    Mr. Lute [continuing]. Of the even this first step 
agreement.
    Mr. Perry. Right.
    Mr. Lute. Right? So the thing we have in hand right now at 
least opens the door for the potential of progress.
    Mr. Perry. Look, I agree with you. It just--it does concern 
me that, you know--and Mast is a guy that--these guys that went 
and served their country and came home, you know, not the same 
person that they left, I mean, as a person who was privileged 
to wear the uniform of our country, I think that part of the 
thing that we have to do as policymakers is honor the 
commitments and the sacrifices that American servicemembers 
have made on our behalf, and, to me, honoring those commitments 
isn't just pulling up, lock, stock, and barrel, and letting 
those spoils go to the enemy. I cannot accept that.
    But let me ask you this: Let's say that the agreement, for 
better or worse, goes generally well but there is still issues 
with the Taliban, they continue to attack, maybe they try and 
advance their position from a terrorism standpoint or from a 
military standpoint if you will.
    Does the agreement preclude the United States--well, maybe 
better put, preclude the Afghan Government from inviting the 
United States to keep a counterterrorism presence in the 
country?
    Does the agreement preclude that possibility, that 
eventuality in the future?
    Mr. Lute. Do you want to try----
    Mr. Perry. Anybody. Okay. Yes. Go ahead.
    Mr. Coffey. Thank you.
    Well, if you--according to the wording in the agreement, at 
14 months, if everything goes well and intra-Afghan talks are 
progressing and terrorists are not using Afghanistan as a safe 
haven, then all U.S. and international forces should be out of 
the country.
    Now, whether or not the Afghan Government, throughout the 
course of its intra-Afghan talks, could somehow give a 
concession that would allow them to negotiate some sort of 
extended presence of U.S. or international counterterrorism 
forces, who knows if this is even a possibility.
    But, if you do read the agreement, by 14 months, if the 
talks are progressing and everyone thinks that the other 
parties are living up to their side of the bargain, there 
should be no international forces in the country.
    Mr. Perry. Anything to add, ma'am?
    Ms. Miller. Yes. I think, theoretically, a future Afghan 
Government, after a peace agreement, of which the Taliban is a 
part can certainly invite the United States to continue some 
kind of security cooperation and counterterrorism mission in 
the country. Whether that is realistic, I doubt. I mean, the 
Taliban, it would be very hard for them to actually agree to 
the presence of foreign forces on Afghan soil given that that 
was the whole rationale of their jihad, is to----
    Mr. Perry. Sure.
    Ms. Miller [continuing]. Eliminate the foreigners. And, 
frankly, it is also not popular much more broadly among the 
Afghan population to have foreign forces on Afghan soil, but 
there is nothing in the agreement that precludes that 
happening.
    Mr. Perry. Can I explore that with you a little bit? I am 
sure it is unpopular to have foreign forces on their soil, but 
what is not unpopular is to have foreign money to huge amounts 
pouring in and being the bulwark for their economy.
    So, if one were tied to the other in that regard, what do 
you suppose the acceptance--maybe not popularity, but 
acceptance would be?
    Ms. Miller. I think that is a major reason why it has been 
accepted over these last years, is their----
    Mr. Perry. I do not think we should forget that. If we 
are----
    Ms. Miller. Yes.
    Mr. Perry [continuing]. Going to continue to pay--and----
    Ms. Miller. Yes.
    Mr. Perry [continuing]. Apparently we are to some extent--
--
    Ms. Miller. Yes.
    Mr. Perry [continuing]. Then there ought to be something 
that comes with that for America.
    Ms. Miller. I think there is a recognition that it is an 
uncomfortable reality for Afghans, that they are dependant on 
foreigners.
    Mr. Perry. With the chair's indulgence, Mr. Ambassador?
    Mr. Lute. Just one quick point with regard to this question 
of a potential invitation for American forces to stay or 
western forces to stay, in my view, the timelines do not add 
up. The chances of an intra-Afghan agreement, a peace--a real 
peace agreement in 14 months, I think, is just--it is 
unimaginable to me. This is going to be a long, difficult road.
    So, at the 14-month mark, if we abide by the agreement, 
because the Taliban is abiding by the counterterrorism part of 
the agreement, and we withdraw completely, then we would face a 
very different question, which is: Ah, now there is a new 
Afghan Government, and they are inviting us back. That would be 
another whole set of hearings, I think, before the 
subcommittee.
    Mr. Perry. I thank you.
    Appreciate it, Mr. Chair.
    Mr. Bera. I want to thank the witnesses. I will use the 
chair's prerogative and give each of you, if you want to--and 
if there is anything we did not ask or that we should be 
thinking about, a minute or two to make a closing statement, 
Then, we will wrap up the hearing.
    Ms. Miller, if you want to start.
    Ms. Miller. Sure. First, just one quick point related to a 
question that came up a number of times, which is what kind of 
enforcement mechanisms are there? There is only one enforcement 
mechanism against the Taliban, and that is keeping American 
troops in Afghanistan. There is not anything else that the U.S. 
can do. You keep troops there, you kill them. That is pretty 
much it.
    Beyond that, I would just mention, apropos what Doug just 
mentioned about how long it might take to get a peace 
agreement, I fully agree that 14 months would be a very short 
amount of time to get a real peace agreement that could endure 
in Afghanistan.
    I am somewhat concerned that the administration currently 
seems to be thinking about this in a different way, which is 
get a fast peace agreement within just a few weeks that is 
basically a very thin peace agreement that just puts together 
some kind of interim government, sets out a process for future 
resolution of issues, but does not really resolve any of the 
problems in Afghanistan. And I think that is a kind of peace 
agreement that would probably very quickly fall apart in the 
implementation.
    So I am a bit concerned about the lack of patience to 
really see it through in the way that might actually--might 
actually result in a durable peace.
    Mr. Bera. Ambassador Lute.
    Mr. Lute. So the last point I would make, Mr. Chair, is 
that, while we have spent some time here talking about the 
limitations of what has been agreed, right, what I think it is 
important to recognize is that this is the power of diplomacy. 
I mean, this is the power of a serious, dedicated diplomat like 
Ambassador Khalilzad, who knows the region, who speaks the 
local languages. I mean, after all, he is an Afghan American. I 
am not sure there is another American who could have pulled 
this off, even what we have, with all its limitations, right?
    But it speaks to the power of investing in our diplomats--
and here we are, the Foreign Affairs Committee--and the status 
of manning, the status of funding in the foreign affairs 
account for both the State Department, who funds--which funds 
people like Khalilzad, but also the Agency for International 
Development, which gets to some of the root problems of 
terrorism and insurgencies, right, and the continued funding in 
the Afghan Government. We have got to turn that around, or else 
we are destined to constantly put the hammer on these 
problems--our very capable military--which is often an ill-
suited tool.
    So this should serve as, I think, an example and a reminder 
of the power of diplomacy.
    Mr. Bera. Ambassador Lute, thank you for making that 
statement. And as I often do, I do want to salute not only our 
troops, but also our men and women in the State Department and 
our foreign service officers at USAID and State for 
representing our country and the hard work that they do every 
day. So I fully appreciate that point.
    Mr. Coffey.
    Mr. Coffey. Mr. Chairman, thank you.
    Two points to conclude on. The first is echoing the need 
for patience and holding steady, especially in the earlier days 
and in the early weeks of this process; it is going to be very 
bumpy.
    I heard a lot of criticism, and we have all sort of mocked 
a little bit the competing governments that exist in 
Afghanistan right now, but we should not forget that, in well-
established democracies in Europe, sometimes it takes weeks, 
and the case of Belgium, it took a couple of years to form a 
government after an election, and this is all part of the horse 
trading that is going on right now, internal, inside baseball, 
or perhaps there is a good Cricket metaphor that could be used.
    But inside baseball, Afghan political politics debate that 
is happening, and we should give them the space and give them 
the time to work this out. It is not the end of the world that 
talks do not start today. If they do not start in like 2 months 
from now, then maybe we should start worrying, but let's just 
give it some time.
    The second is--and this was not mentioned at all, and I do 
want to make this point. We have to make sure that the U.S. 
Government throughout this process of withdrawing forces 
consults very closely with our allies, both NATO and outside of 
NATO that have troops on the ground.
    There has been a lot of consultation with NATO, which is 
great, but there are a lot of countries that are not in NATO 
that contribute sizable forces to Afghanistan, like the 
Republic of Georgia, for example, which I think is the fourth 
largest troop contributor, and they need to be involved in 
this, because international forces are supposed to withdraw 
inproportionate to the withdraw of U.S. forces, and it is no 
easy logistical task to bring troops out of a place like 
Afghanistan.
    So I just ask that we make sure the U.S. Government 
consults with our allies on the withdrawal process, if we do, 
in fact, withdraw forces.
    Thank you.
    Mr. Bera. Thank you.
    I want to thank the witnesses and all the members for being 
here today.
    And, with that, the committee is adjourned.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                

                    OPENING STATEMENT CHAIRMAN BERA
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                    




                                 <all>
</pre></body></html>
